U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                            Review of ATF’s Explosives
                               Inspection Program
                                      April 2013




                               I-2013-004

                               EXECUTIVE DIGEST 



INTRODUCTION

        The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
conducts qualification inspections of applicants for new explosives
licenses or permits, as well as compliance inspections of current license
and permit holders (“licensees”) to ensure that they are following federal
explosives laws and regulations.1 Since 2003, the Safe Explosives Act
(SEA) has required ATF to inspect every licensee’s explosives storage
facilities (“SEA compliance inspection”) at least once every 3 years as part
of the license and permit renewal process.2 The purpose of this Office of
the Inspector General (OIG) review was to examine how effectively and
efficiently ATF conducts these inspections and how it uses the
information gathered during the inspections to identify trends in the
explosives industry that would allow it to improve its inspection program.

       According to ATF policy, SEA compliance inspections are
conducted in the 12-month period preceding a license’s or permit’s
expiration date. Consequently, the number of these inspections ATF
conducts each fiscal year depends on how many licenses and permits are
due for renewal.3 In October 2011, there were approximately 10,600
active explosives licenses in the United States. In fiscal year (FY) 2011,
ATF conducted approximately 3,400 SEA compliance inspections. These
inspections are conducted by a staff of 624 Industry Operations
Investigators assigned to the 25 ATF Field Divisions nationwide. In
addition to conducting explosives qualification and compliance
inspections, these same Investigators conduct qualification and
compliance inspections of individuals and companies seeking federal
firearms licenses. These Investigators also conduct outreach to both the
explosives and firearms industries.



       1 Explosives are defined by 18 U.S.C. § 841 as any chemical mixture or device
whose purpose is to explode and include items such as dynamite, black powder,
detonators, and igniters.

       2 Pub. L. No. 107-296, Title XI, Subtitle C of the Homeland Security Act of 2002.
Although the Safe Explosives Act was signed in 2002, it went into effect in 2003.

       3  Under federal explosives laws, all persons who wish to manufacture, import,
or distribute explosives in commerce must acquire a federal explosives license, and
those who wish to obtain explosives must acquire a federal explosives permit. In this
report, we use the term “license” to refer to both licenses and permits.


U.S. Department of Justice                                                                 i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

      From FY 2006 through FY 2011, ATF generally conducted its
required explosives inspections and had procedures in place to ensure it
did so consistently. Specifically:

       	 ATF conducted at least 94 percent of the compliance
          inspections required by the SEA, but due to limitations of ATF’s
          data systems, we were unable to determine whether ATF
          conducted the remaining 6 percent of required inspections;
       	 ATF has put in place standards that require thorough
          inspections and controls to ensure those standards are met;
       	 ATF cited fewer violations over time; and
       	 ATF has a framework to guide its field divisions in responding to
          non-compliant explosives licensees.

       However, we also found several areas where ATF needs to improve
its performance.

      ATF does not consistently document whether the inspections it
conducted meet the SEA mandate: We found that ATF potentially
overcounts the number of explosives inspections that meet the SEA
mandate because it counts inspections without regard to whether those
inspections included a complete inspection of storage facilities. ATF is
also unable to determine whether it is complying with its policy to
inspect each explosives licensee during the 12-month period before the
license expires.

       ATF does not effectively use its inspection results data to identify
trends in the explosives industry and target resources to address these
trends: We found that ATF reviews explosives inspection results on a
case-by-case basis, but it does not capture important inspection results
in its electronic databases or use those databases to identify and assess
broader trends in the explosives industry. This approach prevents ATF
from answering basic questions that could assist it in conducting
inspections more effectively, reduces ATF’s ability to monitor the field
divisions’ progress in completing inspections, and precludes ATF from
using inspection results data to help it assess whether resources should
be reallocated between field divisions. We also found that ATF’s manual
processes for reconciling inspection data with licensee data are inefficient
and time consuming. In addition, ATF’s two data systems are not
connected, preventing the automatic sharing of information that could
show the connections between licenses issued and inspections
conducted if individual entities’ license numbers change over time.
U.S. Department of Justice                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
       ATF does not ensure that buyers with expired licenses do not
purchase explosives without authorization during the 45-day regulatory
grace period for license renewals: Licensees that are in the process of
renewing their licenses are authorized to continue buying explosives for
up to 45 days following the license expiration date.4 While explosives
sellers have an obligation to check the status of each buyer’s license,
sellers do not have a reliable method to confirm that a buyer is seeking
renewal and is within the 45-day grace period. ATF issues Letters of
Authorization when licensees in the renewal process request them but
not otherwise, making it difficult for sellers to determine whether buyers
with expired licenses and no Letters of Authorization are in the renewal
process or simply have no valid licenses.

       ATF does not conduct in-person inspections of all explosives end-
users that require them: While ATF conducts in-person inspections of
licensees that possess most kinds of explosives, ATF conducts
inspections by telephone of end-users that use only explosive pest
control devices (EPCD). Moreover, to determine if an end-user qualifies
for inspection by telephone, Investigators rely on the end-user’s
representation that it uses only EPCDs, and Investigators do not always
verify those statements independently.

       ATF does not have an effective way to enforce compliance with out-
of-business requirements: While explosive licensees that go out of
business are required to turn over their explosives records to either ATF
or a successor licensee, fewer than half of the licensees that went out of
business between FY 2006 and FY 2011 did so. Moreover, the
administrative actions that ATF would normally take against non-
compliant licensees have no impact on companies that have already gone
out of business and given up their licenses.5 Further, ATF has no
efficient way to determine which out-of-business licensees have records
that need to be submitted.




       4   27 C.F.R. § 555.103(b)(1)(i) states that this regulatory grace period does not
apply if the seller knows or has reason to believe that the buyer’s authority to continue
explosives operations has been terminated.

       5   Firearms licensees have a statutory obligation to turn in 20 years of firearms
records to ATF when they go out of business and may face penalties that range from a
fine to 5 years in prison, or both, if they fail to do so. See 18 U.S.C. §§ 923(g)(4) and
924(a)(1)(D).


U.S. Department of Justice                                                              iii
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

       In this report, we make seven recommendations to improve ATF’s
ability to monitor its progress toward completing SEA-mandated
inspections, to better position ATF to identify and respond to risks or
trends emerging in its explosives inspection program, to make it easier
for explosives sellers to recognize buyers that are authorized to continue
purchasing explosives after their licenses expire, to ensure that EPCD
users are not able to obtain other explosives without in-person
inspections, and to improve its collection of records from out-of-business
companies. We recommend that ATF:

       1. Ensure that the SEA mandate is fulfilled by tracking whether
          compliance inspections include a full examination of storage
          facilities;

       2. Ensure that Investigators document the end date of the on-site
          portion of each inspection in N-Spect, ATF’s inspection tracking
          system;

       3. Identify inspection data that would be useful for analysis of its
          explosives licensee inspection program, and of trends in the
          explosives industry, and develop methods for regularly
          collecting and analyzing this information;

       4. Develop a method for tracking entities regardless of changing
          license numbers, such as assigning an identifying number to
          each licensee that remains consistent for the duration of the
          licensee’s explosives operations;

       5. Create a reliable, consistent, and efficient mechanism for
          explosives sellers to verify a buyer’s authorization to purchase
          explosives, such as by providing a Letter of Authorization to
          every buyer with an expired license that files a timely renewal
          application;

       6. Conduct in-person inspections of all EPCD users or obtain the
          authority to issue licenses and permits valid only for EPCDs;
          and

       7. Explore ways to obtain more out-of-business records within
          ATF’s current legal authority.




U.S. Department of Justice                                                    iv
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS 



 EXECUTIVE DIGEST ......................................................................... i
 

 BACKGROUND ................................................................................. 1
 

 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ...... 7
 

 RESULTS OF THE REVIEW............................................................. 10
 

     ATF conducted the vast majority of the compliance inspections 

     required by the SEA, but due to limitations of ATF’s data 

     systems we were unable to determine whether it conducted all 

     of them. ..................................................................................... 10
 
      
     ATF has established standards for inspections and has put in 

     place controls to ensure those standards are met. ...................... 14
 

     ATF cited fewer violations over time. ........................................... 16
 

     ATF has a framework to guide its field divisions in responding to 

     non-compliant explosives licensees............................................. 18
 

     ATF’s case-by-case approach to its explosives inspection 

     program does not make comprehensive use of inspection data 

     to identify trends in the explosives industry or target its 

     resources to address these trends. ............................................. 19
 
      
     ATF is unable to ensure that no one purchases explosives with
     expired licenses or without necessary inspections....................... 29
 
      
     ATF does not have an effective way to enforce the regulatory 

     requirements for its collection of the records of explosives 

     licensees that go out of business. ............................................... 33
 

 CONCLUSION AND RECOMMENDATIONS ...................................... 36
 

 APPENDIX I: ATF EXPLOSIVES ASSIGNMENTS ............................. 38
 

 APPENDIX II: ATF RESPONSE TO DRAFT REPORT ........................ 40
 

 APPENDIX III: OIG ANALYSIS OF ATF RESPONSE ......................... 44
 



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND 



      The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
inspects federal explosives licensees to ensure that they are following
federal explosives laws and regulations.6 As of October 2011, there were
approximately 10,600 approved federal explosives licensees in the
United States. These licensees used about 3 million metric tons of
explosives in 2011 for purposes that ranged from mining, quarrying, and
construction to manufacturing air bags and conducting medical
procedures that fracture kidney and gall stones.

       Since 2003, the Safe Explosives Act (SEA) has required ATF to
inspect every licensee’s explosives storage magazines at least once every
3 years.7 The purpose of this Office of the Inspector General (OIG) review
was to examine how effectively and efficiently ATF conducts these
inspections and how it uses the information gathered during the
inspections to identify trends in the explosives industry that would allow
it to improve its inspection program.

      In fiscal year (FY) 2011, a staff of approximately 624 Industry
Operations Investigators in ATF’s 25 field divisions conducted
approximately 3,400 SEA compliance inspections. These Investigators
also are responsible for inspecting more than 123,500 federally licensed
firearms dealers and conducting outreach to the firearms and explosives
industries by, for example, attending industry association meetings or
holding ATF open houses. The sections below briefly describe federal
explosives regulations and ATF’s explosives inspections.




       6  Anyone wishing to manufacture, import, or distribute explosives must acquire
a federal explosives license, while those wishing to obtain explosives must acquire a
federal explosives permit. In this report, we use the term “license” to refer to both
licenses and permits.

       7  Pub. L. No. 107-296, Title XI, Subtitle C of the Homeland Security Act of 2002.
The Safe Explosives Act went into effect in 2003. Enforcing federal explosives laws has
been part of ATF’s mission since the enactment of the Organized Crime Control Act of
1970 (Pub. L. No. 91-452, codified at 18 U.S.C. §§ 841-848). The Organized Crime
Control Act defined the term “explosives” as “any chemical compound mixture, or device,
the primary or common purpose of which is to function by explosion.”
18 U.S.C. § 841(d). This definition includes dynamite, black powder, detonators, and
igniters.


U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
Federal Explosives Regulations

       The federal explosives regulations, 27 C.F.R. Part 555, last
updated in 2007, implement the explosives laws codified at
18 U.S.C. §§ 841-848, including the provisions of the SEA. The
regulations describe the requirements for the proper storage of
explosives, including the proper types, construction, maintenance,
security, and placement of magazines. Explosives must be stored in one
of five types of magazines, which may provide permanent or mobile
storage, as well as indoor or outdoor storage. The regulations on
magazine placement, called the Tables of Distances, set minimum
distances between a magazine and roads, railways, buildings, and other
magazines, based on the weight and type of explosives stored. ATF
inspects a licensee’s storage facilities to determine compliance with these
regulations.

      The regulations require licensees to keep records pertaining to
explosives stored on the business’s premise for 5 years from the date a
transaction occurs or until discontinuation of the business. These
records must include information regarding the business’s acquisition
and disposition of explosives; any explosives thefts or losses; and daily
summaries of explosives added to, removed from, and remaining in the
magazines. The regulations also require that licensees notify ATF if they
go out of business. Every business that is either discontinued or
succeeded by a new owner must notify ATF and return its license or
permit to ATF’s Federal Explosives Licensing Center. Businesses that
are succeeded by another business must provide the successor business
with their explosives records. Businesses that do not have a successor
must ship their explosives records to ATF’s Out-of-Business Records
Center so that those records are available if ATF needs them as part of
an explosives trace.8

ATF’s Explosives Inspections

      The Industry Operations unit of ATF’s Office of Field Operations is
responsible for inspecting federal explosives licensees. Each year, ATF
creates an Industry Operations Operating Plan that identifies
headquarters’ mandatory inspection initiatives and field division
discretionary initiatives. Field divisions must complete all mandatory
inspections in their jurisdictions. The field divisions use their remaining

       8  Tracing is the systemic tracking of explosives from manufacturer to purchaser
for the purpose of aiding law enforcement officials in identifying suspects involved in
criminal violations, establishing stolen status, and proving ownership. ATF’s
U.S. Bomb Data Center is responsible for tracing explosives.


U.S. Department of Justice                                                            2
Office of the Inspector General
Evaluation and Inspections Division
resources to conduct inspections meeting field division discretionary
initiatives. Mandatory initiatives include the SEA compliance inspections
and qualification inspections of businesses applying for explosives and
firearms licenses. Discretionary initiatives include recall inspections of
explosives licensees cited for violating laws or regulations during a
previous inspection and also firearms licensee compliance inspections.
At the beginning of each fiscal year, headquarters sends each field
division a list of explosives licensees due for inspection during that fiscal
year. The field divisions then schedule the inspections.

       ATF uses two separate data systems to assist in managing its
explosives inspection program: the Federal Licensing System (FLS) and
N-Spect. Both systems predate the SEA’s implementation in 2003. FLS
has been in use since 2000 and N-Spect since 1999. ATF uses FLS to
manage applications for firearms and explosives licenses, the issuance of
licenses, and information regarding firearms and explosives
manufacturers, importers, dealers, and explosives users. N-Spect is a
case management tool that stores inspection data entered by
Investigators and managers in the field divisions, including data on
violations. ATF tracks information on each violation, including the
regulations broken.

       Investigators’ assignments fall into four main categories of
activities within N-Spect – administrative, compliance, general, and
qualification – and these categories pertain to firearms, explosives,
tobacco, and alcohol work. In this report, we discuss three types of
explosives licensee inspections: qualification, compliance, and recall
inspections. The sections below describe each type of inspection. (See
Appendix I for additional information.)

Qualification Inspections

       ATF inspects all applicants for explosives licenses to determine if
they are qualified to enter the industry and to receive, possess, and
handle explosives. ATF’s Federal Explosives Licensing Center must issue
the license or permit within 90 days of receipt of the complete and
correct application. An Investigator reviews the results of the Federal
Explosives Licensing Center background checks on the applicant’s
Responsible Persons and Employee Possessors, and identifies and
reviews field office files that may be relevant to the new application.9


       9 A Responsible Person is an individual who has the power to direct the
management and policies of the applicant pertaining to explosives. An Employee
Possessor has actual physical or constructive possession of explosives. The law
                                                                                (Cont’d.)
U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
       Once on site, the Investigator interviews the applicant, reviews the
application, examines documents that provide proof of ownership and
control of the business, and verifies that state or local permits have been
obtained. The Investigator also determines whether the type and location
of storage magazines are appropriate for the amount and type of
explosives the applicant intends to use and verifies any contingency
(backup) storage the applicant has arranged. Lastly, the Investigator
explains mandatory regulations and voluntary security considerations,
and provides contact information for the local ATF office. After
completing the qualification inspection, the Investigator prepares a report
recommending approval or denial of the application. The licensing center
will not issue a new license or permit unless the Investigator
recommends approval. In FY 2011, ATF conducted 1,105 qualification
inspections.

Compliance Inspections

       As part of the license renewal process, ATF conducts a compliance
inspection to determine if the licensee is complying with federal laws and
regulations, and to detect and prevent the diversion of explosives from
legal to illegal commerce. According to ATF’s Industry Operations
Handbook:

       In order to ensure compliance with the requirements of the
       SEA, a full inspection will be conducted at renewal time.
       Inspections conducted up to 12 months prior to the renewal
       date meet this requirement. These inspections will include
       verification of storage as required by the SEA and all other
       aspects of a full inspection.

      The steps an Investigator follows for a compliance inspection are
similar to those for qualification inspections. First, the Investigator
reviews the licensee’s compliance history in the field office files and
queries ATF databases for background information. Next, the
Investigator visits the business premises to interview the Responsible
Persons and review business records; verify that all Responsible Persons
and Employee Possessors have passed ATF background checks; inspect
the magazines for construction, maintenance, and compliance with the

prohibits seven categories of individuals from serving as Responsible Persons or
Employee Possessors: (1) convicted felons or people under felony indictment,
(2) fugitives, (3) people illegally using or addicted to controlled substances, (4) people
who have been adjudicated a mental defective or who have been committed to a mental
institution, (5) aliens (with limited exceptions), (6) people dishonorably discharged from
the military, and (7) people who have renounced their U.S. citizenship.


U.S. Department of Justice                                                               4
Office of the Inspector General
Evaluation and Inspections Division
Tables of Distances; and conduct an inventory of explosives and compare
it with the company’s explosives records. The Investigator holds a
closing conference with the licensee to discuss any violations and
corrective actions the license holder must take to fix the violations, as
well as to review the general requirements of federal explosives
regulations. Figure 1 summarizes the compliance inspection process.

                 Figure 1: Compliance Inspection Process




Source: ATF Industry Operations Handbook.

      After completing the compliance inspection and ensuring that the
licensee has corrected any violations found, the Investigator prepares a
report and enters the inspection data into N-Spect. If the inspection
found violations, ATF may take administrative actions that include
issuing a warning letter, holding a warning conference, or revoking a
license. If the violations require some minimal, yet formal, documented
action, ATF issues a warning letter to remind a licensee that retention of
U.S. Department of Justice                                               5
Office of the Inspector General
Evaluation and Inspections Division
a license or permit is conditional upon compliance with federal laws and
regulations. If the violations involve continuing failures despite
previously having received a warning letter, ATF holds a warning
conference with the licensee. The purpose of the conference is to allow a
field supervisor to discuss problems directly with the licensee and to
assess the licensee’s ability to achieve compliance in the future. ATF
may use these two types of actions (warning letter or warning conference)
even in cases where violations are not willful.10 An explosives license or
permit may be revoked or a renewal denied if ATF finds that the licensee,
according to federal explosives regulations, “is not likely to comply with
the law or regulations or is otherwise not eligible to continue operations
under his license or permit,” after considering the willfulness of the
licensee’s violations, the impact of these violations on public safety, and
the licensee’s compliance history.11 In FY 2011, ATF conducted
approximately 3,400 SEA compliance inspections.

Recall Inspections

       Recall inspections are a subcategory of compliance inspections
that ATF may conduct if a licensee has received a warning letter or a
warning conference as a result of a prior inspection. The purpose of a
recall inspection is to check whether the licensee has corrected the
violations that were identified in a prior inspection. The steps the
Investigator takes during a recall inspection depend on the nature of the
prior violations. In FY 2011, ATF conducted approximately 150 recall
inspections.




       10 ATF’s Industry Operations Handbook defines willfulness as the “intentional
disregard of a known legal duty or plain indifference” to a licensee’s legal obligations.

       11   27 C.F.R. § 555.74 (2007).


U.S. Department of Justice                                                                  6
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



Purpose

      We conducted this review to examine how effectively and efficiently
ATF inspects all explosives licensees as required by the SEA and how it
uses the information gathered during the inspections to identify trends in
the explosives industry that would allow it to improve its inspection
program.

Scope

      We examined ATF’s explosives inspection program, including the
process and standards for inspecting explosives licensees and the
process for confirming whether all explosives licensees receive mandatory
inspections. We examined data from ATF’s data systems on 14,600
explosives licenses and permits that were valid between FY 2006 and
FY 2011, and data on 51,000 explosives assignments closed between
FY 2005 and FY 2011. These assignments included inspections of
explosives licensees. (See Appendix I for the types of assignment
categories and subcategories.)

Methodology

       We conducted fieldwork from September 2011 through June 2012
that included in-person and telephone interviews, analysis of ATF data
from sources including FLS and N-Spect, document reviews and
analysis, and site visits to ATF headquarters and field offices in
Birmingham, Alabama; Denver, Colorado; and Lansdale, Pennsylvania.

Interviews

       We interviewed a total of 57 officials at ATF headquarters and each
of the 25 field divisions. These interviews provided information on ATF’s
goals and priorities for explosives inspections, explosives policies and
guidance, ATF headquarters oversight of the field divisions, field division
implementation of the program, the steps of the explosives inspection
and licensing processes, the process explosives licensees must follow
when they cease operations, and the use of explosives licensee records in
explosives traces.




U.S. Department of Justice                                                7
Office of the Inspector General
Evaluation and Inspections Division
Data Analyses and Document Reviews

      We examined data from ATF’s FLS, which tracks all federal
firearms and explosives licenses and permits applied for and issued, and
ATF’s N-Spect, which tracks data on all firearms and explosives
inspections conducted. We analyzed explosives licensing data to identify
which licenses and permits were active each year between FY 2006 and
FY 2011, then compared that information against explosives inspection
data between FY 2005 and FY 2011 to determine whether ATF performed
SEA compliance inspections of each of those licensees at the time
required by the SEA and ATF policy.12 At ATF headquarters, we observed
how ATF reconciles information in its databases by requesting it
reconcile a sample we selected of 95 licensees that appeared to have no
record of inspections.13 ATF’s employees searched FLS and N-Spect,
using identifying information about each licensee to determine whether
each one received an inspection. We also analyzed explosives licensing
data to determine how often ATF recorded the receipt of records from
licensees that had ceased business operations.

      In our analyses, we considered “SEA compliance inspections” to be
compliance inspections conducted specifically to meet the SEA’s triennial
inspection mandate.14 We categorized inspections ATF conducted for
other reasons but that appear to have met the requirements of the SEA
(because they included a full inspection of storage facilities) as “storage
inspections.”15 These inspections include those conducted after
accidents or thefts.


       12  According to ATF’s Industry Operations Handbook, “[i]n order to ensure
compliance with the requirements of the SEA, a full inspection will be conducted at
renewal time. Inspections conducted up to 12 months prior to the renewal date meet
this requirement.” Due to this policy, 8 percent of the SEA compliance inspections that
ATF needed to complete in FY 2006 were actually completed in FY 2005.

       13 The licensees we examined had no record of specific compliance inspections
when we expected to identify one. For instance, one licensee had a compliance
inspection in FY 2006, but not in FY 2009 when the license was again due for renewal.

       14  ATF labels these inspections as “SEA Full” inspections in its databases. In
this report, we use the term “SEA mandate” to describe the requirement that ATF
inspect the storage facilities of each explosives licensee every 3 years.

       15  Inspection types that we concluded would meet the storage inspection
requirements of the SEA include those categorized as qualification inspections as well
as the following ATF subcategories of compliance inspections: Accidental Explosion
Investigation, Explosive Pest Control Devices (EPCD), Fireworks Limited, Fireworks
Temporary Storage Verification, Investigation Theft or Loss, Non-SEA Full, Non-SEA
                                                                                (Cont’d.)
U.S. Department of Justice                                                               8
Office of the Inspector General
Evaluation and Inspections Division
      We analyzed explosives compliance inspection data from FY 2006
through FY 2011 to examine ATF’s findings of violations, its
recommendations for administrative actions, and its assessments of each
licensee’s overall compliance.16

       We reviewed ATF policies and guidelines related to the explosives
inspection program. These included ATF’s Industry Operations
Handbook, guidance and policy memoranda, and training materials. We
also reviewed ATF budget requests, federal explosives laws and
regulations, and pending legislation. We did not independently assess
the controls ATF uses to ensure consistency in its inspections or the
content of inspection reports.

Site Visits

       We conducted one site visit for planning purposes and selected the
Birmingham, Alabama, Field Office at ATF’s recommendation. This visit
oriented us to ATF’s explosives inspection program and helped us
identify sources for data and information about the program. We then
conducted two additional site visits in Denver, Colorado, and Lansdale,
Pennsylvania, based primarily on the number and variety of explosives
licenses and permits within the field divisions’ territories. There we
interviewed ATF staff at all levels to understand how program policies are
put into practice in the field and to gather additional documents for
analysis. During our Pennsylvania site visit, we also observed an
explosives compliance inspection.




Full Explosives Threat Assessment and Prevention Strategy (ETAPS), Recall Inspection
Full Scope, and SEA Full.

       We concluded that the following compliance inspections would not have met the
storage inspection requirement of the SEA because ATF policy does not require them to
include a full storage inspection: Assist ATF Investigation, Assist Law Enforcement,
Disposition Emphasis Non-Violent Crime Impact Team (VCIT), Field Division Initiative,
Non-SEA Limited, Non-SEA Limited ETAPS, Non-VCIT Limited Scope, Recall Inspection
Limited Scope, Southwest Border, and Special Request Other.

        We used the FY 2005 inspection data only to assess ATF’s ability to meet the
       16

SEA mandate.


U.S. Department of Justice                                                             9
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       	 From FY 2006 through FY 2011, ATF conducted at
          least 94 percent of the compliance inspections
          required by the SEA, but due to limitations of ATF’s
          data systems we were unable to determine whether
          ATF conducted the remaining 6 percent of required
          inspections.

       	 ATF has established standards for inspections and put
          in place controls to ensure those standards are met.

       	 ATF cited fewer violations over time.

       	 ATF has a framework to guide its field divisions in
          responding to non-compliant explosives licensees.

       	 ATF’s case-by-case approach to its explosives
          inspection program does not make comprehensive use
          of inspection data to identify trends in the explosives
          industry or target its resources to address these
          trends.

       	 ATF is unable to ensure that no one purchases
          explosives with expired licenses or without necessary
          inspections.

       	 ATF does not have an effective way to enforce the
          regulatory requirements for its collection of the
          records of explosives licensees that go out of
          business.


ATF conducted the vast majority of the compliance inspections
required by the SEA, but due to limitations of ATF’s data systems
we were unable to determine whether it conducted all of them.

       To achieve the SEA mandate, ATF needed to conduct nearly 19,000
compliance inspections of explosives licensees between FY 2006 and
FY 2011, which represents the number of licensees that had possessed
their explosives licenses or permits for at least 2 years and were eligible




U.S. Department of Justice                                              10
Office of the Inspector General
Evaluation and Inspections Division
for renewal at least once during this timeframe.17 ATF told us it
conducts all of the inspections required by the SEA, which mandates a
triennial inspection of a licensee’s storage facilities.18 However, the
Deputy Assistant Director for Industry Operations who oversaw ATF’s
explosives inspection program during our review but retired in 2012 told
us that the limitations of ATF’s databases made it difficult for ATF to
determine how many licensees were inspected.

       To determine whether ATF had conducted all of the inspections, we
compared license expiration dates in FLS with inspection data in
N-Spect. These stand-alone systems pre-date the SEA and do not share
data with each other. We determined that ATF conducted inspections
that fulfilled the SEA mandate for 94 percent (17,719 of 18,917) of the
licensees. These inspections were completed in the year before or the
year of the licenses’ expiration date and included full examinations of the
licensees’ explosives storage facilities. We counted an inspection as
including a full examination of storage if ATF’s definition of the
inspection type that was conducted directed Investigators to inspect all of
a licensee’s explosives storage. ATF inspected most of these licensees
(17,432) primarily for the purpose of meeting the SEA mandate, and in
this report, we refer to these inspections as SEA compliance inspections.

        ATF inspected an additional 2 percent of licensees (287) for other
purposes that included full examinations of the licensees’ explosives
storage facilities. These included inspections of temporary fireworks
storage during the summer fireworks season and investigations into the
theft or loss of explosives material. Because these 287 inspections
included full examinations of storage facilities, we counted them as
meeting the SEA mandate. We did not include inspections in
subcategories that we believed did not meet the SEA mandate because
they did not direct Investigators to conduct full examinations of storage
facilities or gave Investigators discretion on whether to do so. Below, we
describe our findings for the remaining 6 percent (1,198 of 18,917) of the
compliance inspections ATF was required to have conducted under the
SEA (see Figure 2).



       17  Because FLS cannot generate lists of licensees due for renewal in past years,
ATF provided us with data on 14,587 licenses that were valid at any point between
FY 2006 and FY 2011. We used that information to calculate how many inspections
ATF needed to conduct each year to achieve the SEA mandate. Some licensees renewed
their licenses twice during that timeframe, received two compliance inspections, and
therefore are counted twice in our total.

       18   18 U.S.C. § 843(b)(4)(A).


U.S. Department of Justice                                                           11
Office of the Inspector General
Evaluation and Inspections Division
            Figure 2: Inspections of ATF Explosives Licensees, 

                        FY 2006 through FY 2011 


                    2%       4%
               2%
                                                       SEA compliance inspection
                                                       (17,432)

                                                       Storage inspection for other
                                                       purposes that met SEA
                                                       mandate (287)
                                                       No inspection identified that
                                                       met SEA mandate (454)

                                                       Storage inspection not
                                                       completed before license
                                                       expiration (744)
                                    92%

 Source: ATF data.

Some licensees may not have received an inspection that fulfilled the
SEA mandate.

      Two percent (454 of 18,917) of the licensees may not have received
inspections that met the SEA mandate for one of two reasons.

        First, although ATF headquarters considers all compliance
inspections to meet the SEA mandate, ATF’s policies do not require all
compliance inspections to include the complete inspection of storage
facilities as required by the SEA. Therefore, ATF headquarters
potentially overcounted the number of compliance inspections during the
review period that met the requirements of the SEA. In contrast, we
considered an inspection to meet the requirements of the SEA only if the
ATF policies governing the specific type of inspection required a full
examination of storage facilities in all cases.19

      Second, database deficiencies prevent ATF from determining
whether it has conducted all of the required inspections. The license
numbers for some licensees change between the time they are inspected
and the time ATF checks to see whether all required inspections have
been completed. As a result, the two data sets that ATF attempts to

       19  We identify the inspections that met our criteria in the Methodology section of
this report.


U.S. Department of Justice                                                             12
Office of the Inspector General
Evaluation and Inspections Division
compare do not match, and ATF’s initial count of required inspections
conducted may not be accurate. In addition, some licensees go out of
business before they are due for inspection, but we found that
inconsistent updates in the databases make it appear that they still need
an inspection and have been overlooked.

       During our field work, we selected a sample of 95 licensees who
were subject to the SEA mandate but for whom we could not find records
of an inspection, and we asked ATF to conduct additional research to
determine what had happened in each instance. ATF determined that 36
(38 percent) of the licenses in our sample had received an inspection that
met the SEA mandate under different license numbers and the other 59
(62 percent) licensees appeared to have gone out of business before they
were due for inspection. ATF officials told us that the field divisions
would have known that these licensees did not need an inspection, but
ATF headquarters was unable to determine for itself that these licensees
did not need an inspection.

ATF completed some inspections after licenses expired.

       The remaining 4 percent (744 of 18,917) of the licensees we
examined appeared to have been inspected late because their licenses
expired before their inspections were closed. ATF policy requires that an
SEA compliance inspection be completed within the 12 months preceding
a license’s expiration date. The SEA requires ATF to inspect each
licensee’s storage facilities before its license is renewed.20 Therefore, the
former Deputy Assistant Director for Industry Operations told us that he
considered the SEA inspection requirement to be fulfilled if the on-site
portion of the inspection was completed prior to the license’s expiration
date, even if the inspection report was not approved and the inspection
closed prior to the expiration date.

      We found that while ATF tracked the dates on which inspections
closed, it did not always track the dates on which licensees received the
on-site portions of their inspections. Consequently, although ATF may
consider the SEA requirement fulfilled once the on-site portion of the
inspection is completed, it cannot always determine whether the on-site
portions of the inspections were completed before the licenses expired.




       20   18 U.S.C. § 843(b)(4)(A).


U.S. Department of Justice                                                13
Office of the Inspector General
Evaluation and Inspections Division
Conclusion and Recommendations

      Our review found that ATF is generally inspecting licensees at or
near the time they are due for inspections. However, ATF potentially
overcounts the number of these inspections that met the SEA mandate
because it counts inspections without regard to whether those
inspections included a complete inspection of storage facilities. ATF is
also unable to determine whether it is complying with its policy to
inspect each explosives licensee during the 12-month period before the
license expires because ATF does not consistently document when the
on-site portion of all inspections is completed. We therefore recommend
that ATF:

       1. Ensure that the SEA mandate is fulfilled by tracking whether
          compliance inspections include a full examination of storage
          facilities.

       2. Ensure that Investigators document the end date of the on-site
          portion of each inspection in N-Spect.

ATF has established standards for inspections and has put in place
controls to ensure those standards are met.

      ATF’s Industry Operations Handbook establishes mandatory
procedures for conducting explosives qualification and compliance
inspections to ensure licensees are inspected in a consistent, thorough,
and safe manner. The handbook outlines steps that Investigators should
take before and during qualification inspections to determine if new
applicants understand and intend to follow federal explosives
regulations. Similarly, it outlines steps that Investigators should take
before and during compliance inspections to determine if licensees are
storing explosives safely, maintaining accurate records of their explosives
inventory, and minimizing the threat that prohibited persons will be able
to access explosives.

       ATF also has put in place controls that are designed to ensure that
inspections are of consistent quality.21 Investigators are required to
prepare a narrative report for every inspection they conduct, whether
they find violations or not. The reports are based on templates that
require detailed information about the licensee’s type of work, structure
of the business, security measures, explosives inventory, records, and


       21During this review, we did not independently assess the controls ATF uses to
ensure consistency in its inspections or the content of inspection reports.


U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
storage facilities. Investigators often work in teams on explosives
inspections, which allows division of labor and enables them to
collaborate on inspection techniques and share best practices. Finally,
Area Supervisors are required to review and approve each report before
an inspection is considered closed, giving them the opportunity to assess
the quality of each inspection, and Directors of Industry Operations, the
second-line supervisors, are required to review and approve inspection
reports that recommend warning conferences or license revocations.

       In addition to identifying regulatory problems, Investigators are
required to identify possible violations of criminal law and refer the
possible violations to ATF Special Agents. However, we found that ATF
has difficulty counting the number of referrals that were made and
determining their dispositions. For example, while we estimated, based
on our review of ATF’s database, that Investigators made 545 referrals to
ATF Special Agents between FY 2006 and FY 2011, due to database
limitations ATF cannot easily determine the exact number of such
referrals.22 We previously identified this problem in our November 2010
report on ATF’s Project Gunrunner, in which we noted that ATF had
difficulty both tracking the disposition of criminal referrals from
Investigators to Special Agents and obtaining feedback that could help
Investigators develop stronger criminal referrals in the future.23 These
problems exist because ATF’s enforcement and inspections databases
(N-Force and N-Spect) are not integrated, and Special Agents can access
only N-Force, while Investigators can access only N-Spect. During the
Project Gunrunner review, ATF told us that it had to research each
individual referral to determine its outcome. ATF told us that it began
requesting funds to improve N-Force and N-Spect in FY 2004, but had
not received any money for that purpose as of April 2013.

      One of the problems that we identified during the Project
Gunrunner review also affects explosives referrals because the same
Special Agent and Investigator staffs are using the same systems
(N-Force and N-Spect) to track both their explosives referrals and their
firearms referrals. In our Project Gunrunner report, we recommended
that ATF develop an automated process that enables ATF managers to


       22  It is not possible to distinguish criminal and non-criminal referrals with
certainty because ATF’s referral tracking system does not distinguish between criminal
and non-criminal referrals. We considered criminal referrals to be those directed to
supervisory Special Agents.

       23 U.S. Department of Justice Office of the Inspector General, Review of ATF’s
Project Gunrunner, Evaluation and Inspections Report I-2011-001 (November 2010),
43-45.


U.S. Department of Justice                                                          15
Office of the Inspector General
Evaluation and Inspections Division
track and evaluate the usefulness of investigative leads provided to
firearms trafficking enforcement groups. ATF concurred with that
recommendation and, in response, reported to the OIG that it was
working on changes to its case management systems that will include
improvements in referral tracking. In addition, ATF reported to the OIG
during this review that it commissioned a study to identify its
requirements for a new integrated system and to develop a better cost
estimate for those requirements. The study was completed in August
2012. ATF reported to the OIG that it is currently developing a strategy
to implement the study’s recommendations, but that development of an
upgraded case management system is dependent on the receipt of new
funding.

ATF cited fewer violations over time.

      In FY 2006, ATF conducted 7,202 compliance inspections and
issued 4,183 violations – an average of 0.58 violations per inspection. In
FY 2011, ATF conducted 4,324 inspections and issued 1,400 violations,
an average of 0.32 violations per inspection. As the number of violations
decreased, these violations were committed by a smaller share of the
licensee population. In FY 2011, 85 percent of explosives compliance
inspections had no violations, an increase of 7 percent from 78 percent
in FY 2006.

        Storage violations of all types declined from 40 percent of violations
cited in FY 2006 to 31 percent of violations cited in FY 2011, a trend we
considered positive because of the SEA’s emphasis on inspecting storage
facilities.24 ATF requires licensees with violations to take corrective
action to fix those violations before ATF will close the inspections.
Through our discussions with ATF employees, we learned that many
storage violations can be corrected with a one-time action. We concluded
that the ability to improve long-term compliance with a one-time action
may have contributed to the decline in storage violations over time.

       Recordkeeping violations of all types accounted for 44 percent of
violations cited between FY 2006 and FY 2011. Two of the most
commonly cited recordkeeping violations remained the same for the
entire 6-year period and accounted for one third of all violations cited
during that time. Failure to maintain an accurate Daily Summary of
Magazine Transactions represented 23 percent of all violations cited
between FY 2006 and FY 2011.25 This was the most common violation

       24   18 U.S.C. § 843(b)(4)(A).

       25   27 C.F.R. § 555.127.


U.S. Department of Justice                                                 16
Office of the Inspector General
Evaluation and Inspections Division
among all types of explosives licensees. To remain in compliance,
licensees must maintain a written record of the quantity of explosives
added to and removed from a magazine each day, along with the total
quantity remaining on hand at the end of the day. Further, licensees
must maintain a separate Daily Summary for each magazine (for
example, a licensee with five magazines must have five Daily
Summaries).

       Failure to maintain accurate user permit records represented an
additional 11 percent of all violations cited between FY 2006 and
FY 2011.26 Licensees must take regular, documented inventories of their
explosives and record specific information about the explosives acquired
in each individual purchase to remain in compliance with this regulation.
Failure to maintain accurate user permit records is the second most
common violation both among user permit holders and the entire
licensee population because user permit holders represent 65 percent of
the licensee population. Importers, manufacturers, and dealers have
similar, but not identical, requirements to take inventories and maintain
records about the explosives they purchase and sell.27 Failures to
maintain importer, manufacturer, or dealer records are the second most
common violations among importers, manufacturers, and dealers.
However, these violations represent only a small share of overall
violations because the populations of importers, manufacturers, and
dealers are much smaller.

      Unlike many storage violations, which can be corrected with a
single action, complying with the Daily Summary and records regulations
requires licensees to take frequent, intentional action to remain in
compliance. The detailed documentation of each individual transaction
must be completed no later than the next business day. Similarly, the
most commonly cited storage violation is for failure to maintain magazine
housekeeping standards that require licensees to take frequent,
intentional action to keep magazines neat and clean, and to keep the
grounds near the magazines mowed or trimmed.

       ATF faces two challenges in responding to these common
violations. First, past compliance is no guarantee of future compliance
because the nature of these violations requires companies to take

       2627 C.F.R. § 555.125. This regulation contains multiple subsections. We
combined the requirements of all subsections of each regulation when determining
which regulations were violated most frequently.

       27 Importer, manufacturer, and dealer records requirements are codified at
27 C.F.R. §§ 555.122-124.


U.S. Department of Justice                                                          17
Office of the Inspector General
Evaluation and Inspections Division
continuous steps to remain in compliance each day. Licensees that had
no Daily Summary violations in the past could make mistakes in those
records in the future. Second, several ATF employees told us that
accurately measuring bulk explosives (also referred to as emulsions or
slurries) is difficult because the product has a tendency to settle and its
volume changes in response to changes in humidity levels or
temperature. These problems with measurement could affect the
accuracy of the records that the licensees are required to maintain.

ATF has a framework to guide its field divisions in responding to
non-compliant explosives licensees.

        At the end of every inspection, Investigators and their supervisors
determine whether to recommend that ATF take administrative action in
response to the inspection findings. ATF has issued two memoranda to
its field divisions, in 2006 and 2007, that provide criteria and guidance
for making consistent recommendation decisions. The guidance focuses
on the three most common administrative actions ATF can take: issuing
a warning letter, holding a warning conference, and pursuing revocation
of a license. ATF generally escalates through these actions, from a
warning letter to holding warning conferences with companies that
continue to have violations after receiving warning letters, to seeking
revocation of licenses when violations continue following warning
conferences. The guidance requires field division personnel to consider
four major factors, described below, before recommending revocation of a
license. Field division personnel told us that they consider these factors
to be important in determining recommendations for every inspection.

       The four factors described in the guidance are willfulness,
compliance history, impact on public safety, and severity of violations.
These factors overlap to some degree. For example, willfulness can be
established by a compliance history that involves multiple inspections
involving the same violations despite ATF’s instructions to the licensee to
change its actions. Similarly, severe violations may also present a
significant risk to public safety. During our review, the Directors of
Industry Operations in all 25 ATF field divisions described these four
factors, especially compliance history and impact on public safety, as
being important in their divisions’ selection of recommendations.

      We found that the relative percentages of each type of
recommendation changed little from year to year between FY 2006 and
FY 2011 despite changes in the numbers of inspections completed.
During each of these years, ATF sent a warning letter in approximately
25 percent of the inspections with violations, held a warning conference
in approximately 10 percent of the inspections with violations, and

U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation and Inspections Division
sought revocation in approximately 3 percent of the inspections with
violations. Fifty percent of the inspections with violations involved
violations that ATF considered sufficiently minor to only provide the
licensee with a Report of Violations rather than to take any
administrative action.28 In the remaining 12 percent of inspections with
violations, the company either went out of business or ATF addressed the
violations by other means.

       We found that 23 of the 25 field divisions have put in place
procedures for reviewing explosives inspections to ensure that their
recommendations are consistent within all field division sub-offices.29
The divisions employ several different methods, including spot-checks of
randomly selected inspections, regular discussions among field division
managers, and regular discussions among Investigators during monthly
training. Of these 23 divisions, 17 field divisions review random samples
of inspections, but only 5 of the 17 engage in what we considered to be a
best practice – they periodically review a random sample of closed
explosives inspections, both with and without violations, to ensure that
all violations were properly cited and reasonable recommendations were
selected. By including inspections without violations in their samples,
these five divisions are also able to assess whether Investigators are
consistently citing all violations they observe. Six of the 23 divisions
review inspections on a case-by-case basis, but do not conduct any
random sampling. The remaining two field divisions do not have any
procedures in place to assess the consistency of their explosives
inspection recommendations.

ATF’s case-by-case approach to its explosives inspection program
does not make comprehensive use of inspection data to identify
trends in the explosives industry or target its resources to address
these trends.

      ATF currently identifies issues that it believes warrant further
study using information learned during inspections, discussions with
ATF Investigators and other ATF personnel, and discussions with


       28  A “Report of Violations” is ATF’s form for documenting inspection violations
and is used in every inspection where violations are found. For example, in one
inspection report we reviewed, a Report of Violations was issued where the violation
found was that the protective steel hood over the magazine lock was 3/16-inch thick
instead of 1/4-inch thick. The steel hood prevents someone from breaking into a
magazine by sawing off the lock.

       29  For this review, we did not independently assess the controls the field
divisions use to ensure consistency.


U.S. Department of Justice                                                            19
Office of the Inspector General
Evaluation and Inspections Division
industry trade associations and individual licensees that seek
collaboration or attend ATF outreach events. However, ATF does not
analyze N-Spect data in a proactive manner to put these issues into the
broader context of the explosives industry as a whole, and it does not use
N-Spect data to identify additional industry trends that might also
warrant further study.

       ATF’s approach to using the information in FLS and N-Spect has
been to query the systems about specific licenses on a case-by-case
basis. ATF does not enter all quantitative and categorical information
collected during inspections into N-Spect and thus cannot query N-Spect
to answer basic questions that could inform its approach to
inspections.30 Further, the databases were not designed to collect
nationwide data about the explosives industry but to record and store
information about each inspection, making it difficult for ATF to conduct
analysis and identify patterns and trends within the industry.

       These data issues prevent ATF from having ready access to
nationwide data on some basic aspects of its explosives regulatory
work.31 For example, ATF employees told us that ATF does not know the
exact number of commercial explosives magazines in the United States or
in a region.32 Investigators do add storage information, including types
and location of magazines, to N-Spect after each inspection. But this can
result in a single magazine being entered into N-Spect multiple times
(once per inspection over the course of multiple inspections), and ATF
headquarters and the field divisions have no effective way to identify and
exclude duplicate entries. As a result, in the event of a natural disaster
such as a flood, ATF field offices cannot rely on N-Spect to determine
how many magazines – and therefore how much explosive material –
might have been affected by the disaster.

       Further, ATF cannot use the inspection data it currently collects to
analyze cited violations and examine whether any violations are specific
to, or more common in, particular subsets of the explosives industry.
ATF collects information about licensee size, type of work, and amount of

       30 For example, ATF does not record information in N-Spect about how many
magazines exist at a business site or characteristics of a licensee such as its size, its
industry, or the types of explosives it uses.

       31 We find these data issues significant given the overall size of the licensee
population (10,600) and the number of those licensees due for inspections each year
(between 2,200 and 4,200).

       32In an effort to tabulate the number of magazines, ATF plans to initiate a pilot
program in FY 2013 to test options for tagging magazines with identification numbers.


U.S. Department of Justice                                                                  20
Office of the Inspector General
Evaluation and Inspections Division
inventory on hand in narrative reports Inspectors write that are separate
from the N-Spect database. Currently, ATF can access this information
only by opening these narrative inspection reports one at a time. If ATF
compiled this data systematically in N-Spect, then ATF headquarters
could examine the impact of these categorical and quantitative
characteristics across multiple field divisions. If this analysis identified
any relationships between licensees and violations, ATF could monitor
changes in the population of licensees and become more proactive about
addressing changes in the type or frequency of violations resulting from
the changing population.

       For example, if ATF documented information on the types of
explosives used in N-Spect, it could then use inspection results to
identify trends in the use of various explosive products and how the
trends in products relate to trends in violations. The former Deputy
Assistant Director for Industry Operations told us that such analyses
would be beneficial to ATF because they might help it determine if there
has been a shift away from easily countable products, such as dynamite,
toward products that are more difficult to count, such as bulk explosives.
If an analysis of inspection results showed a relationship between the
use of bulk explosives and recordkeeping violations, then monitoring
changes in the use of bulk explosives could help ATF anticipate changes
in recordkeeping violations.

       Analyzing comprehensive inspection results could also help ATF
more effectively share compliance best practices with licensees that do
not attend outreach events. According to ATF employees, not all
licensees participate in those events, but ATF Investigators talk with
every licensee during the course of inspections. If ATF headquarters
analyzed inspection results to determine how licensee size, licensee age,
industry, type of explosive materials, or geographic region influenced
violations, then Investigators could proactively share useful information
collected from past inspections during their inspections. This way, ATF
could share best practices it identifies that are most applicable to each
licensee at least once every 3 years.

      In addition to quantitative analysis, we believe ATF should also
incorporate its inspection data into qualitative analyses. For example,
ATF needs a better understanding of the relationship between types of
explosives used and inspection results, an evaluation of how the
explosives industry is using technologies that are more advanced than
what is described in the regulations, and an assessment of the




U.S. Department of Justice                                                21
Office of the Inspector General
Evaluation and Inspections Division
effectiveness of recall inspections.33 Because this type of information is
not categorical or quantitative, adding data fields to N-Spect would not
capture the details in a way that would be useful for ATF. Instead, other
analytical methods, such as file reviews or case studies, would likely be
more beneficial.

       However, it would be difficult for ATF headquarters to do so given
its current recordkeeping systems because ATF cannot easily identify
groups of inspections that should be reviewed collectively to identify
patterns of industry behavior. This type of analysis would be easier to
conduct if ATF first improved its collection of categorical and quantitative
data as described above.

       If ATF headquarters were to make comprehensive use of its
inspection results, it could identify trends that cut across multiple states
and field divisions and fully assess the broader impact of these trends.
For example, extensive drilling for natural gas is being done in upper
Pennsylvania and nearby states because of the Marcellus shale.34 A
Director of Industry Operations told us that his field division has seen an
increase in its explosives inspection workload due to the drilling. An
Investigator who inspects gas drilling operations told us that one unique
task for these inspections is checking the drill paths to make sure they
are a safe distance from magazines. If ATF headquarters could analyze
trends across the five field divisions in this region, it could assess how
the drilling affects both inspection workload and whether there are any
types of violations or safety issues (such as the distance between drill
paths and magazines) that are unique to drilling operations. ATF then
would be able to disseminate its conclusions to the field divisions in this
region to help them manage their resources to better identify and
address emerging issues at a licensee before those issues turn into
violations.

      ATF also could benefit from comprehensive analyses of inspection
results that reveal how new technologies, variances from its regulations,
and its industry outreach activities ultimately affect industry compliance.
Currently, ATF conducts some analysis of variances requested by
licensees who want exceptions to the requirements in the explosives

       33For example, some licensees monitor their magazines with security cameras,
something not covered by the regulations. Others are experimenting with locks that are
made out of materials harder than the case-hardened steel required by the regulations.

       34   The Marcellus shale is a source for many oil and gas reservoirs in the
Appalachian basin. Marcellus production is focused on five states in five different ATF
field divisions: Pennsylvania, Ohio, West Virginia, New York, and Maryland.


U.S. Department of Justice                                                           22
Office of the Inspector General
Evaluation and Inspections Division
regulations. ATF does so after a specific issue is brought to its attention
and may issue rulings to clarify the meaning of existing regulations.
However, this reactive approach does not take full advantage of the
information that ATF gathers during explosives inspections. For
example, several ATF employees told us that the explosives regulations,
originally issued in the 1970s when the use of computers was
uncommon, do not account for advances in technology and products.
ATF therefore issued a ruling in 2007 to allow explosives licensees to
maintain their explosives records electronically. Analyzing violations
found during inspections could help ATF identify other regulations that
could be updated to better align with what the explosives industry is
already doing.

Conclusion and Recommendation

       Overall, we concluded that ATF headquarters does not take full
advantage of the information its Investigators collect during their
inspection work. As a result, ATF is not able to fully identify and assess
national or regional trends throughout the explosives industry. We
believe that if ATF headquarters conducted more in-depth analyses of the
inspection results it already collects, such as by examining the influence
of licensee size, industry, and type and amount of explosive materials
used in the violations it finds, it could use that information to address
changing trends in the explosives industry proactively rather than
reactively. We recommend that ATF:

       3. Identify inspection information that would be useful for analysis
          of its explosives licensee inspection program, and of trends in
          the explosives industry, and develop methods for regularly
          collecting and analyzing this information.

ATF does not currently have enough information to determine which
licensees would be most likely to benefit from recall inspections.

       ATF headquarters does not currently analyze whether licensees
that received recall inspections show collective improvement. Such
analyses could help ATF identify whether some types of licensees might
benefit from more frequent inspections than the 3 years required by law
and whether other types of licensees are likely to improve their
compliance without receiving recall inspections. If ATF finds that some
types of licensees improve their compliance without recall inspections, it
could redirect the resources spent on those inspections to other
priorities.



U.S. Department of Justice                                               23
Office of the Inspector General
Evaluation and Inspections Division
       Field divisions determine if an individual licensee has shown
improvement following a recall inspection by reviewing compliance
history and previous violations. They use these factors because the
purpose of the recall inspection is to see if licensees with previously
identified violations have corrected the problems. The field divisions
acquire this information by reviewing and analyzing the individual
narrative inspection reports created outside of N-Spect.

       Until 2010, ATF measured each quarter whether licensees had
collectively improved their compliance after recall inspections. ATF
stopped using this performance measure in 2010 because it concluded
that the measurement did not give a good picture of whether the
licensees had improved. We decided to analyze the effectiveness of recall
inspections using a somewhat different method. ATF had compared only
the number of violations from the licensees’ first 3-year inspections (the
baseline inspections) with the number of violations from the recall
inspections. Fewer violations were taken to mean the recall inspections
had improved the licensees’ compliance. However, ATF concluded that
its method did not measure the relative severity of the violations. In our
analysis, we considered severity and regarded inspections that resulted
in less-serious recommendations to be an indication of improved
compliance.35 Like ATF, we also considered a reduction in the number of
violations to be an indication of improved compliance. Unlike ATF, we
looked at the changes between two compliance inspections and whether
a recall inspection was conducted in between.

        In a sample of 117 licensees that ATF had identified for recall
inspections and that had a second SEA compliance inspection 3 years
later, 81 percent (95 of 117) became more compliant than they had been
originally. However, not all of these 117 companies had received recall
inspections. While explosives qualification and compliance inspections
are mandatory, explosives recall inspections are discretionary and thus
compete with firearms inspections for priority.36 Of the 117 licensees in
our sample, 25 did not have recall inspections between the baseline
compliance inspection and their second SEA compliance inspection, yet
84 percent (21 of 25) improved over their baseline inspections. The

       35  Recommendations, in order of increasing severity, are Report of Violations,
Warning Letter, Warning Conference, and Revocation. For more information, see our
earlier discussion of ATF’s guidance for field divisions to respond to non-compliant
licensees.

       36 ATF field division employees told us that they try to conduct explosives recall
inspections as necessary without considering whether they are a mandatory or
discretionary priority.


U.S. Department of Justice                                                               24
Office of the Inspector General
Evaluation and Inspections Division
remaining 92 licensees did have recall inspections between the baseline
inspection and their second SEA compliance inspection, and 80 percent
(74 of 92) of them improved over their baseline inspections. Thus, while
recall inspections may be helpful in individual cases, our limited
sampling did not indicate that recall inspections greatly improved future
compliance overall.

       We do not intend to suggest that recall inspections have no value
and should be eliminated. To the contrary, we believe that our review
demonstrates the need for ATF to be more targeted in its recall
inspections. However, given its limited data analysis, ATF currently is
unable to do so. If ATF were to analyze national trends in recall data, it
might be able to identify characteristics that make some licensees more
likely than others to improve if they receive a recall inspection. For
example, ATF might find that newer licensees might benefit more from a
recall inspection than licensees that are more established in the
business. Such a finding would allow ATF to manage its resources more
efficiently by directing Investigators to inspect the licensees who are least
likely to improve without the additional inspections. As a result, field
divisions might be able to reallocate some personnel and other resources
from explosives recall inspections to other field division priorities.

ATF’s method of monitoring field division progress on inspections
impedes its ability to allocate resources more efficiently for national
priorities.

       ATF also does not have a clear picture of the field divisions’
progress in completing mandatory explosives inspections, which makes it
difficult for ATF headquarters to determine how efficiently ATF is using
its Industry Operations resources nationwide. Under ATF’s annual
Industry Operations Operating Plans, field divisions have the flexibility to
set division-specific discretionary inspection goals after they have met
the nationwide mandatory goals. We found that field divisions generally
have the ability to monitor their own progress toward meeting their
division-specific and nationwide goals. However, ATF headquarters
cannot fully monitor how the explosives inspection workload changes
over the course of the year and cannot easily match inspections
completed to the population of inspections required. Therefore, we
concluded that ATF headquarters may miss opportunities to reallocate
resources between field divisions to best fulfill nationwide priorities.

      ATF headquarters cannot always see changes in a field division’s
explosives inspection workload over the course of the year. Field division
employees told us that they plan and execute their annual explosives
inspection workload based on a list of required SEA inspections provided

U.S. Department of Justice                                                25
Office of the Inspector General
Evaluation and Inspections Division
to them by ATF headquarters.37 Every year some licensees cease to work
with explosives after this list is generated and do not need to be
inspected. Field division employees may learn of these situations directly
from the licensees while conducting routine pre-inspection research or
upon arrival at a licensee’s former address to initiate an inspection.

       If field division employees learn that a licensee has gone out of
business before initiating that licensee’s inspection, they do not have to
create any record in N-Spect because there is no inspection to document.
Although this practice creates no harm for the field divisions because
N-Spect remains an accurate record of how field division staff actually
spend their time, it complicates ATF headquarters’ ability to monitor the
nationwide use of Industry Operations resources. If a field division has
concluded that an inspection is not necessary because a licensee has
ceased to work with explosives, it appears to ATF headquarters that the
licensee was not inspected. The reason for the failure to complete the
inspection does not become clear to ATF headquarters until months later
when that licensee declines to renew the license. As a result, ATF
headquarters may assume that the field division still needs to use its
resources to complete its annual explosives inspection workload when, in
fact, the field division may have already completed all of its mandatory
assignments. If other field divisions were in need of supplemental
resources to complete their annual explosives inspection workloads, ATF
headquarters could not easily see how many field divisions had moved on
to discretionary inspections and might have resources available to assist
with mandatory inspections in other parts of the country.

ATF’s current tracking of inspection data is inefficient and time
consuming.

       ATF headquarters uses the N-Spect database to track overall
numbers of completed inspections, but it is unable to determine with
certainty whether each individual licensee has received an SEA
compliance inspection without manually reconciling the inspection and
licensee data. ATF headquarters employees told us that during each
quarter of the fiscal year, they run a report to determine whether each
field division is on pace to complete its required number of inspections
that year. This report shows ATF headquarters whether the correct
number of inspections was completed, but cannot directly show whether
the correct licensees were inspected.


       37  As noted in the Background section, this list is included in the annual
Industry Operations Operating Plan that is shared with all field divisions at the start of
each fiscal year.


U.S. Department of Justice                                                              26
Office of the Inspector General
Evaluation and Inspections Division
       To determine whether each licensee has received an SEA
compliance inspection, ATF headquarters spends time manually
reconciling inspection and licensee data. SEA compliance inspections
are not always easily identifiable in ATF’s data systems, making it
difficult and time consuming for ATF to confirm that each licensee
received an inspection when needed.38 Similar to the situation we
described in the previous section, this difficulty can make it appear to
ATF headquarters as though mandatory explosives inspection work is
incomplete when, in fact, it is not. Again, ATF headquarters may miss
opportunities to reallocate resources between field divisions to best fulfill
nationwide priorities.

       One reason SEA compliance inspections are not easily identifiable
is that license numbers change. For example, federal regulations require
ATF to issue new license numbers to licensees that submit license
renewal applications after their existing licenses expire, licensees that
seek a different type of license (such as converting from a dealer to an
importer), licensees that convert to a new type of entity (such as
switching from a sole proprietorship to a corporation), or licensees that
relocate their businesses.39

        We observed that some of the difficulty ATF headquarters faces in
determining whether each licensee has received an inspection results
from field divisions recording inspections under old license numbers,
while ATF headquarters begins its searches using new license numbers.
One licensee may have several different license numbers over the lifetime
of its explosives operations. In such cases, ATF headquarters must
manually search its databases using other identifying information such
as the business name or Responsible Person to identify the completed
inspection that is associated with the license that appears to be missing
an inspection. This inefficient method consumes time that ATF could
allocate for other priorities. ATF headquarters could make the inspection
reconciliation less difficult by tracking the entity throughout its life
regardless of changing license numbers.

      In the absence of a centralized ability to draw connections between
inspections required and inspections completed, ATF’s field division
personnel have created their own methods of monitoring their SEA
compliance. Nineteen of the 25 field divisions maintain their own SEA
inspection tracking documents, separate from ATF’s main databases.

       38  One of ATF’s performance measures is to ensure that 100 percent of explosive
licensees received a qualification or SEA compliance inspection within the last 3 years.

       39   27 C.F.R. §§ 555.46(a), 555.54, and 555.57.


U.S. Department of Justice                                                          27
Office of the Inspector General
Evaluation and Inspections Division
Field division personnel maintain these documents using ATF data and
update them as their inspections are completed, essentially documenting
all of their inspections twice. Maintaining these tracking documents
puts a burden on field division supervisors’ time that could be used for
operational activities. Although ATF headquarters can request these
local tracking documents from the field, it cannot use this information to
monitor nationwide progress because the field divisions do not track
their inspections identically and their results may not be directly
comparable.

      Currently, FLS and N-Spect are stand-alone systems; updating
information in one system does not automatically update the other. We
concluded that, at the time these systems were first implemented (2000
and 1999, respectively), ATF had no particular need to be able to see
connections between licenses issued and inspections conducted. ATF
did not begin to need that information until the SEA went into effect in
2003. ATF employees agreed that automatic sharing of the date of a
licensee’s last inspection, licensee identifying information and locations,
and the number of magazines each licensee possesses would be helpful
information. Several Directors of Industry Operations told us that it
would be helpful to have N-Spect and FLS communicate with each other,
although they acknowledged that connecting these systems would be a
major investment of ATF’s time and money.

Conclusion and Recommendation

       We believe that ATF would be able to improve its allocation of
resources if it used more effective methods of monitoring its progress in
completing inspections. Currently, both headquarters and the field
divisions are expending time and resources to reconcile licensee and
inspection data that could be better used for other priorities
recommended in the annual operating plans. While connecting FLS and
N-Spect would make inspection tracking and oversight more efficient, it
would also require ATF to make a major investment of both time and
money. We believe ATF could make improvements to its efficiency if it
stopped using a potentially changing license number to connect
information on licenses and inspections. This could help minimize the
disconnect ATF currently finds when attempting to reconcile its records.
We recommend that ATF:

       4. Develop a method for tracking entities regardless of changing
          license numbers, such as assigning an identifying number to
          each licensee that remains consistent for the duration of the
          licensee’s explosives operations.


U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
ATF is unable to ensure that no one purchases explosives with
expired licenses or without necessary inspections.

       We identified two issues that limit ATF’s ability to effectively
enforce explosives regulations across the entire licensee population.
First, we found that a federal regulation designed to ensure continuity of
explosives operations for licensees renewing their licenses creates a
loophole that allows for the possibility of licensees purchasing explosives
with expired licenses. Second, we found that ATF’s practice of
conducting only telephone inspections of one subset of the licensee
population allows for the possibility that licensees could avoid in-person
inspections by making statements to ATF that ATF does not always
independently verify.

ATF’s issuance of Letters of Authorization only upon request prevents it
from ensuring that only buyers that have applied for license renewal may
purchase explosives after their licenses expire.

        A licensee may submit a timely renewal application to ATF up to
the day that its license expires. If a licensee submits a renewal
application on or just a few days before the license’s expiration date, ATF
may not be able to issue the new license before the old one expires. If
ATF determines that it will be unable to complete the renewal process
and grant a renewed license before the previous one expires, a federal
regulation and an ATF practice both ensure continuity of the licensee’s
business. First, a seller may sell or distribute explosives to a buyer for
not more than 45 days following the expiration of the buyer’s license or
permit, unless the seller knows or has reason to believe that the buyer’s
authority to continue explosives operations has been terminated.40
Second, a buyer may request that ATF issue a Letter of Authorization
(letter) as proof that the buyer is allowed to continue purchasing
explosives. However, ATF does not require buyers with expired licenses
to obtain these letters.

      While the regulation requires sellers to verify a buyer’s
authorization to purchase explosives, sellers do not have a reliable
method to confirm that a buyer whose license has expired has applied for
a renewal of the license and is within the 45-day grace period.41 The


       40   27 C.F.R. § 555.103(b)(1)(i).

       41 The regulation requiring sellers to verify a buyer’s authorization to purchase
explosives is 27 C.F.R. § 555.103(b)(1)(ii).

                                                                                 (Cont’d.)
U.S. Department of Justice                                                            29
Office of the Inspector General
Evaluation and Inspections Division
regulation allows the seller to assume that a transaction with the expired
license is valid unless the seller knows the buyer has not renewed the
license. A letter from ATF would serve to confirm the buyer’s authority to
purchase explosives, but buyers are not required to obtain such a
letter.42 As a result, a licensee that has not filed for license renewal may
be allowed to purchase explosives in the 45 days after a license expires.43

       ATF could rectify this problem easily by issuing an authorization
letter in every case where a renewal application is pending on the day a
license expires.

Conclusion and Recommendation

       ATF’s practice of issuing letters attesting to the continuing validity
of a recently expired license only when licensees request them is a
weakness that prevents sellers from easily confirming a buyer’s eligibility
to purchase explosives. Therefore, we recommend ATF:

       5. Create a reliable, consistent, and efficient mechanism for
          explosives sellers to verify a buyer’s authorization to purchase
          explosives, such as by providing a Letter of Authorization to
          every buyer with an expired license that files a timely renewal
          application.




        ATF officials told us that they are interested in developing an online system for
sellers to verify buyers’ licenses, but that they have not yet done so due to legal
impediments relating to privacy considerations.

       42  In the absence of a letter, sellers can call the Federal Explosives Licensing
Center, which takes calls from 7 a.m. to 3:30 p.m. Eastern Standard Time, or their local
ATF field offices, to verify a buyer’s authorization.

       43 We did not review whether and to what extent buyers with expired licenses
were able to buy explosives because that was outside the scope of our review.


U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
ATF’s practice of inspecting end-users of explosive pest control devices
only by telephone creates a risk that they could access the full range of
regulated explosives without the necessary in-person inspections.

       ATF does not hold end-            Explosive Pest Control Devices
users who use only explosive
                                   EPCDs are:
pest control devices (EPCD) to
the inspection standards it           Used to frighten birds and other pests
applies all other licensees,           away from airports, landfills, and
even though EPCD end-users             agricultural areas without harming the
have the same access all               animals.
licensees do to a wide range of       Designed to be thrown by hand or fired
explosive materials. ATF               from a firearm or another launching
adopted the practice of                device.
inspecting EPCD end users by          Considered to be explosives because
telephone to conserve                  they contain flash powder, black
resources. It relies on the            powder, or other pyrotechnic materials.
end-users to state whether         Source: ATF’s Explosives Industry
they are using only EPCDs          Program Branch, Federal Register, Vol. 68,
and does not always verify         No. 19 (Jan. 29, 2003), Notice No. 969.
those statements. As a
result, end-users could tell ATF they use only EPCDs and be inspected
by telephone even if they are in fact purchasing other explosives for
which ATF conducts an in-person inspection.

      Commercially manufactured EPCDs are not considered
particularly powerful explosives (see text box), and from December 2001
through November 2010, ATF did not inspect end-users of EPCDs at all.
During that period, it considered whether EPCD end-users could be
exempted from federal explosives regulations, but the Department
concluded that only Congress had the authority to create new
exemptions to explosives laws and regulations and halted this effort.44


       44   In response to congressional concerns, ATF conducted research and
considered several options between 2001 and 2009 for regulating end-users of EPCDs.
ATF tested methods for storing EPCDs and concluded that they could be safely stored
in a different way than had been previously allowed under the regulations. ATF also
analyzed incidents reported to the U.S. Bomb Data Center over a 10-year period and
concluded that the devices were rarely used in crimes.

        In 2009, a bill was introduced in the Senate that would have both created a
specific statutory exemption for EPCDs and granted the Attorney General the authority
to create additional exemptions in the future for explosives that did not pose a threat to
public safety and were unlikely to be used as a weapon. This bill did not pass, and no
similar bill has been introduced since.


U.S. Department of Justice                                                             31
Office of the Inspector General
Evaluation and Inspections Division
ATF continues to inspect EPCD manufacturers, importers, and dealers in
person.

       In November 2010, ATF decided that as long as applicants for end-
user permits indicated they planned to use only EPCDs, ATF
Investigators would inspect them by telephone.45 In FY 2011, the first
year in which these inspections could be separately identified in N-Spect,
ATF conducted 85 inspections by telephone. Seventy-five were
qualification inspections for new permits, and 10 were compliance
inspections for existing permit holders.46

       We found ATF’s decision to exempt one group from in-person
inspections troubling because an explosives license or permit authorizes
its holder to purchase any type of explosives, not just those explosives
described in the application. Thus, while an applicant might tell ATF
that it intends to obtain only EPCDs, there is nothing to prevent the
applicant from purchasing other explosives once the license is obtained.
ATF’s current policy presents a risk that permit holders could obtain
non-EPCD explosives without an in-person visit by ATF, as ATF’s
telephonic inspection policy provides for no independent verification of
permit holders’ statements regarding the type of explosives they use and
store.

      We believe ATF should conduct in-person inspections of all end-
users. In-person inspections allow ATF to independently verify what
licensees and permit holders say, both by seeing that they are using and
storing the type of explosives that they told ATF they would be using and
also by verifying that the person running the company is the one who
applied for the license or permit. If licensees or permit holders were
found to be using other types of explosives besides EPCDs, in-person
inspections would allow ATF to ensure that those materials were being
handled and stored properly.47



       45   ATF conducts in-person inspections for all other applicants.

       46In this report, we have used the term “license” to refer to both licenses and
permits. However, in this instance we are referring specifically to permits.

       47 We note that ATF officials stated that they have not encountered instances of
anyone exploiting the loophole described in this section, and it was beyond the scope of
our review to look for such instances. We also note, however, that unless ATF institutes
a mechanism for obtaining independent verification of statements made by permit
holders that purport to use only EPCDs, ATF is unlikely to know whether they are
actually obtaining other explosives as well.


U.S. Department of Justice                                                               32
Office of the Inspector General
Evaluation and Inspections Division
       Alternatively, telephonic inspections of EPCD end-users would be
appropriate if ATF issued permits that allowed holders to purchase only
EPCDs. However, ATF’s position is that issuing a license or permit that
is restricted to only some explosives would be equivalent to creating a
new license or permit type beyond what is currently authorized in the
law and that this can be done only by Congress.

Conclusion and Recommendation

       ATF does not hold EPCD users to the same inspection standards
applied to all other licensees and permit holders, even though these
users have the same access to explosives. We are concerned that ATF
has only limited contact with these permit holders and does not always
verify that what they are telling Investigators is true. If ATF intends to
continue inspecting EPCD users by telephone, it needs a better way to
ensure those users can access only EPCDs and no other types of
explosives for which ATF would normally conduct in-person SEA
compliance inspections. We recommend that ATF:

       6. Conduct in-person inspections of all EPCD users or obtain the
          authority to issue licenses and permits valid only for EPCDs.

ATF does not have an effective way to enforce the regulatory
requirements for its collection of the records of explosives licensees
that go out of business.

       Federal explosives regulations require companies that have gone
out of business to turn in their last 5 years of explosives purchase, sale,
and inventory records to ATF, or to a successor licensee, within 30 days
of discontinuance.48 ATF collects these records so that they are available
if ATF needs them as part of an explosives trace. We found that many
explosives trace requests involve explosives that are more than 5 years
old at the time ATF receives the trace request. An employee of the U.S.
Bomb Data Center (USBDC), which conducts explosives traces, told us
that because of this the Center relies on its own database of records
voluntarily provided by explosives manufacturers.

       ATF faces two obstacles when it comes to enforcing this provision.
First, there is little incentive for licensees to submit records when going
out of business because there are no penalties for companies that violate
this provision. Second, ATF does not know which licensees that go out of


       48 27 C.F.R. § 555.121(a)(2) and 27 C.F.R. § 555.128. Federal regulations do
not require licensees to keep records of how they use the explosives they purchase.


U.S. Department of Justice                                                            33
Office of the Inspector General
Evaluation and Inspections Division
business have records to submit because it does not know which
licensees have ever bought or sold explosives.

      Forty-two percent of the licensees that went out of business
between FY 2006 and FY 2011 turned in their records to a successor
licensee or to ATF as required by the regulations.49 ATF does not know
what happened to the records of the remaining 58 percent (4,643 of
8,065) of licensees that discontinued operations during these 6 years.50

       There is no explicit statutory requirement for explosives licensees
to turn in these records when they go out of business, only a regulatory
requirement. Moreover, the only penalties ATF can impose for failure to
comply with any explosives regulation are administrative actions such as
warning letters, warning conferences, or license revocations, but these
options would not affect a licensee that has already gone out of business
and given up its license. By contrast, firearms licensees have a statutory
obligation to turn in 20 years of firearms records to ATF when they go
out of business, and may face penalties that range from a fine to 5 years
in prison, or both, if they fail to do so.51

       In addition, we found that the data systems ATF uses are
inefficient in tracking the records of companies that go out of business.
FLS and N-Spect document which licensees go out of business, and FLS
has fields to document when a licensee turns in its records. However,
there are no data fields in either system that allow ATF to determine
whether licensees possessed explosives while they were licensed and
therefore generated records in the first place.52 Thus, if a licensee goes

       49 We concluded that ATF knew what happened to these records because FLS
contained a disposition status code that describes what happened to the records or, in
the alternative, FLS recorded either an identification number assigned by ATF’s Out-of-
Business Records Center to materials it has received or the license number of a
successor licensee.

       50 We concluded that ATF did not know what happened to these records
because FLS included a disposition status code that did not describe what happened to
the records and also had neither an Out-of-Business Records Center identification
number nor a successor license number.

       51 The statutory requirement to turn in records of a discontinued firearms
business is found at 18 U.S.C. § 923(g)(4). The statutory penalty for failure to turn in
records for a discontinued firearms business is found at 18 U.S.C. § 924(a)(1)(D).

       52 ATF field division employees told us that licensees that do not possess
explosives are likely to operate in states that require all companies bidding on public
works projects to have a federal explosives license or permit, regardless of whether
explosives are necessary for the project being bid.


U.S. Department of Justice                                                                34
Office of the Inspector General
Evaluation and Inspections Division
out of business without submitting its records, ATF does not typically
know whether the licensee had records to submit.

Conclusion and Recommendation

       ATF currently does not collect enough records to benefit its
explosives tracing needs and should identify how many years’ worth of
records would be beneficial. Additionally, although licensees are
required to turn in these records when they go out of business, ATF has
no effective options for penalizing licensees that fail to provide these
records. ATF collected records from fewer than half of the licensees that
went out of business between FY 2006 and FY 2011.

       We recommend that ATF:

       7. Explore ways to obtain more out-of-business records within
          ATF’s current legal authority.




U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



        ATF is doing well in some aspects of its explosives industry
program but needs improvement in others. ATF conducted at least
94 percent of the compliance inspections required by the SEA during the
6 years the OIG reviewed. However, the limitations of ATF’s data
management make it difficult to determine whether the remaining
6 percent of inspections examined explosives storage, took place at all, or
if they were completed in a timely manner. These problems impede ATF’s
ability to determine whether it inspected all licensees’ explosives storage
facilities as required by the SEA and whether those inspections were
completed in the timeframe required by ATF policy.

       ATF has established controls to ensure inspections are performed
consistently and issued guidance to help field divisions address
compliance problems in a consistent manner. Our analysis showed that
ATF made its inspection recommendations consistently between FY 2006
and FY 2011. It also showed that ATF Investigators found fewer
violations in FY 2011 than in FY 2006, and those violations were
committed by a smaller segment of the licensee population. Despite
these trends, ATF may face continuing challenges with industry
compliance, as many commonly cited violations, such as recordkeeping
violations, require licensees to take daily action to remain in compliance.

       ATF headquarters does not take full advantage of the information
its Investigators collect over the course of their inspection work. We
believe that if ATF conducted more in-depth analyses of the inspection
results it already collects, it could identify and address changing trends
in the explosives industry proactively rather than reactively. Moreover,
these types of analyses could help ATF headquarters assess the impact of
national or regional trends that cross existing field division boundaries,
allowing it to assess whether resources should be reallocated between
field divisions and devise more effective enforcement programs. ATF also
needs to monitor its progress in completing inspections more effectively,
both so it can reduce the amount of time and resources currently
devoted to this task and so that it can better identify situations where
resource reallocation could improve ATF’s overall efficiency. ATF
employees have suggested, and we agree, that connecting FLS and
N-Spect would help in this regard. However, ATF could also make
changes within the current versions of FLS and N-Spect that would
address these concerns.

       In two areas, ATF has made decisions that have limited its ability
to effectively enforce explosives regulations. First, issuing Letters of

U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation and Inspections Division
Authorization only when licensees request them is a weakness that could
allow former licensees to purchase explosives even though their licenses
have expired and they have not sought to renew them. Second, ATF does
not inspect EPCD end-users in person, even though they have access to
the full range of explosives. ATF needs to inspect EPCD users in person
as long as they are allowed to purchase all types of explosives.

      Finally, fewer than half of the licensees that went out of business
between FY 2006 and FY 2011 complied with a regulatory requirement to
provide their explosives records to either ATF or a successor licensee.

      To improve ATF’s ability to effectively and efficiently oversee its
inspection program, and identify and respond to trends in the explosives
industry, we recommend that ATF:

       1. Ensure that the SEA mandate is fulfilled by tracking whether
          compliance inspections include a full examination of storage
          facilities;

       2. Ensure that Investigators document the end date of the on-site
          portion of each inspection in N-Spect;

       3. Identify inspection data that would be useful for analysis of its
          explosives licensee inspection program, and of trends in the
          explosives industry, and develop methods for regularly
          collecting and analyzing this information;

       4. Develop a method for tracking entities regardless of changing
          license numbers, such as assigning an identifying number to
          each licensee that remains consistent for the duration of the
          licensee’s explosives operations;

       5. Create a reliable, consistent, and efficient mechanism for
          explosives sellers to verify a buyer’s authorization to purchase
          explosives, such as by providing a Letter of Authorization to
          every buyer with an expired license that files a timely renewal
          application;

       6. Conduct in-person inspections of all EPCD users or obtain the
          authority to issue licenses and permits valid only for EPCDs;
          and

       7. Explore ways to obtain more out-of-business records within
          ATF’s current legal authority.


U.S. Department of Justice                                                37
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX I: ATF EXPLOSIVES ASSIGNMENTS 



      ATF categorizes Investigators’ assignments into four main
categories of activities within N-Spect that are further broken down into
subcategories of inspections or other assignments as follows. These
categories include assignments and inspections for all of ATF’s areas of
responsibility: firearms, explosives, arson, tobacco, and alcohol.

 Category of
                Administrative         Compliance           General        Qualification
 Assignment

 Subcategory       Accounting          Investigations       Magazine
      of          Agent Cashier          Accidental        Inspection       Qualification
 Assignment        Fund Audit             Explosion       ATF Magazine        EPCD
                                        Investigation
    Types
                     Training                             Other Federal/    Qualification
                    Assembled            Assist ATF        State/ Local        New
                    Training –          Investigation       Magazine
                    Instructor                                              Qualification
                                         Assist Law         Disaster        New On-site
                    Assembled           Enforcement         Recovery
                    Training –                            Field Contact        Other
                     Student            Investigation                      Application for
                                        Theft or Loss       Telephone      new Employee
                     Detail                                  Contact       or Responsible
                  Assignments             Fireworks                            Person
                  Detail to Field        Inspections        Outreach
                    Division          Fireworks Limited      ETAPS          Verification
                                                                           EXPLOSIVES
                    Detail to             Fireworks         ETAPS –           ONLY
                  Headquarters           Temporary         Ammonium
                                           Storage           Nitrate
                     Other               Verification
                 Special Request                            ETAPS –
                 from Licensing           Non-SEA           Chemical
                     Center             Inspections
                                        Non-SEA Full       Government

                                        Non-SEA Full         Industry
                                      Explosives Threat
                                      Assessment and          Public
                                         Prevention
                                      Strategy (ETAPS)        Other
                                                          Referrals NOT
                                      Non-SEA Limited      Associated
                                                             with an
                                      Non-SEA Limited      Inspection
                                          ETAPS



U.S. Department of Justice                                                              38
Office of the Inspector General
Evaluation and Inspections Division
 Category of
                Administrative         Compliance          General       Qualification
 Assignment
                                         Disposition         Special
                                       Emphasis Non-      Request from
                                        Violent Crime      Explosives
                                        Impact Team         Industry
                                            (VCIT)         Programs
                                                             Branch
                                      Non-VCIT Limited
                                           Scope       Headquarters
                                                         Initiative
                                            SEA
                                          SEA Full

                                           Recall
                                      Recall Inspection
                                         Full Scope

                                      Recall Inspection
                                       Limited Scope

                                           Other
                                      Southwest Border

                                      Special Request
                                          Other

                                       Explosive Pest
                                       Control Devices
                                          (EPCD)

                                       Field Division
                                         Initiative




U.S. Department of Justice                                                          39
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX II: ATF RESPONSE TO DRAFT REPORT 





                                                      U.S. Department of Justice

                                                      Bureau of Alcohol. Tobacco.
                                                      Fireanns and Explosives




                                                      \~\\'w,atf,gtlv




     MEMORANDUM TO: Inspector Gcncral

                     FROM: Acting Director

                 SUBJECT:     The Bureau of Alcohol, Tobacco, Fircanns and Explosives
                              Response to the Office of the Inspector General's Fonnal Draft
                              Report on the Rcvicw of ATF's Explosives Inspection Program
                              Assignment Number A-2011-003



   The Bureau of Alcohol, Tobacco, Fircal111s and Explosives (ATF) has rcviewed the Dcpartment
   of Justice. Office of the Inspector General's (OIG) draft report on thc above-cited subject. We
   appreciate the opportunity to provide comments on the report and its recommendations. A TF
   provides the following f0l111al response to the OIG's recommendations:

   Recommendation #1: Ensure that the Safe Explosives Act mandate is fulfilled by tracking
   whether compliance inspections include a full examination ofstoragc facilities.

   ATF's Response: Concur. ATF will track in N-Spect whether compliance inspections include a
   full examination of storagc facilities.

   Recommendation #2: Require investigators to document the end date of the on-site portion of
   each inspection in N-Speet.

   ATF's Response: Concur. A TF by policy requires its Industry Operations Investigators to
   document the end datc of the on-site portion of each inspcction in N-Spect. A TF also will
   examine the feasibility and cost of improving the N-Spcct system to prompt system users when
   this infon11ation is not recorded.




U.S. Department of Justice                                                                           40
Office of the Inspector General
Evaluation and Inspections Division
                                                      2




   Inspector General



   Recommendation #3: Identify inspection infonnation that would be useful for analysis of its
   explosives licensee inspection program, and of trends in the explosives industry, and develop
   methods for regularly collecting and analyzing this infonnation.

   ATF's Response: Non-concur. ATF's assessment is that the manner in which it currently
   collects and analyzes industry infonnation is efficient, that the cost of developing new
   recordkeeping systems and of deploying human resources to undertake the type of comprehensive
   analysis of inspection data described in the recommendation would be substantial, and that any
   additional value created by such a undertaking would be marginal.

   ATF's assessment is that its nationwide analytic and outreach programs effectively identify and
   address trends in the explosives industry. Trend identification is achieved through
   communication and collaboration within ATF, as well as through interaction with the industry
   members and associations. ATF makes presentations, participates in conferences and meetings,
   and issues Rulings, Open Letters, and other clarifications (such as newsletter articles) to identify,
   evaluate and address operational trends. ATF's relationships and partnerships with industry
   members and associations are particularly important, because the regulated industry is in a better
   position than ATF to forecast industry trends.

   ATF believes that the cost of undertaking the type of infomlation collection and analysis
   proposed by OIG would be high. As the draft report notes, the databases maintained by ATF in
   N-Spect "were not designed to collect nationwide data about the explosives industry but to record
   and store infonnation about each inspection .... " The expense of modifying current data
   collection applications, or acquiring new applications, would be substantial and, if acquired,
   would require that ATF divert funding from other important programs. In addition, ATF believes
   that implementation of the business model proposed by OIG would require a substantial
   commitment of personnel and training.

   While the OIG recommendation suggests that analyzing inspcction data represents a proactive
   approach to identifying industry trends, ATF respectfully disagrees. Inspection data are collected
   for a single point in time -the time at which the inspection occurs. Once data are collected from
   multiple inspections and analyzed, time has passed. Given that inspections for a particular license
   occur on a three year cycle. ATF believes that aggregated inspection data arc necessarily stale,
   and therefore have low infonnational value relative to the information collected through current
   husiness practices.




U.S. Department of Justice                                                                                 41
Office of the Inspector General
Evaluation and Inspections Division
                                                     3




   Inspector General




   Recommendation #4: Develop a method for tracking entities regardless of changing license
   numbers, such as assigning an identifying number to each licensee that remains consistent for the
   duration of the licensee's explosives operations.

   A TF's Response: Concur in part. ATF agrees that it is desirable to track entities regardless of
   changing license numbers, and is assessing the feasibility and cost of doing so. ATF is not certain
   whether the recommendation to assign an identifying number to each licensee that remains
   consistent for the duration of the licensee's explosives operations is feaslble, eost-effeellve or
   optimal.

   ATF is examining using entities' voluntarily-provided employer identification number or social
   security number to link licenses associated with a single entity. It also is assessing whether
   existing data fields in the Federal Licensing System (FLS) can be used to record the entity with
   which a license is associated.

   ATF also will assess the feasibility and cost of assigning unique identifier for each legal entity
   that applies for a license or permit.

   Recommendation #5: Create a reliahle, consistent, and efficient mechanism for explosives
   sellers to verify a buyer's authorization to purchase explosives, such as by providing a Letter of
   Authorization to every buyer with an expired license that files a timely renewal application.

   ATF's Response: Concur in part. ATF agrees that it is desirable to have a reliable, consistent,
   and erIicielll rnechanisrn fur t:xpiusives sdlt:rs to vt:rify a buyer's authorization tu pun..:hast:
   explosives. A TF does not believe that it is advisable to provide a Letter of Authorization (LOA)
   to every buyer with an expired license who tiles a timely renewal application.

   ATF believes that a promising solution is to develop and deploy an automated verification system
   similar to the FFL eZ Check system that allows one Federal Fireanlls Licensee (FFL) who has a
   copy of another FFL's license to verify or authenticate the license prior to shipping or disposing
   of a fireall11(s) to the requesting licensee. ATF has already invested significant resources into
   developing a Federal Explosives License and Permit (FELlP) eZ Check and believes that it should
   continue to do so.

   ATF does not agree that providing a LOA to every buyer with an expired license who files a
   t\lndy renewal application is advisable. The availability of an LOA to renewal applicants is
   prominently and clearly explained on the A TF website. See http://www.atfgov·!explosivesihow­
   to:renew-an-fel.html. ATF processes approximately 220 license renewals per month.




U.S. Department of Justice                                                                                42
Office of the Inspector General
Evaluation and Inspections Division
                                                    4



   Inspector General



   Approximately 10-15% of renewal applicants request an LOA. ATF believes that renewal
   applicants arc in the best position to determine whether or not they require an LOA. Determining
   when renewal applicants' license expires and sending an LOA irrespective ofthc renewal
   applicant's need or desire for an LOA is not an optimal use of ATF resourccs.

   Recommendation #6: Conduct in-person inspections of all Explosives Pest Control Devices
   (EPCD) users or obtain the authority to issue licenses and pcnnits valid only for EPCDs.

   ATF's Response: Non-concur. ATF's assessment is that its current procedure for conducting
   inspections of EPCD users is the most cost-effective approach to ensuring public safety. ATF
   conducts telephone qualification inspections ofEPCD users. During the telephone inspections,
   Industry Operations Investigators verify that the applicant has the requircd storage and ensure that
   the statutory requirements for licensing or pemlitting are mct. If during the telephone inspection,
   ATF determines that the EPCD user intends to be involved with other types of explosives; the
   inspection is cxpanded to an in-pcrson field visit. lfFederallaw were amended to allow the
   issuance of licenses and pennits valid only for EPCDs, ATF would adapt its procedures
   accordingly.

   Recommendation #7: Explorc ways to obtain more out-of-business records within ATF's
   current legal authority.

   ATF's Response: Concur. ATF will explore ways to obtain more out-of-business records within
   ATF's currcnt legal authority.

   Again, thank you for the opportunity to provide the above comments on the subject rcport.




U.S. Department of Justice                                                                                43
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX III: OIG ANALYSIS OF ATF RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Bureau of Alcohol, Tobacco, Firearms and Explosives for its
comment. ATF’s response is included in Appendix II to this report. The
OIG’s analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1: Ensure that the SEA mandate is fulfilled by
tracking whether compliance inspections include a full examination of
storage facilities.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation and
stated that it will track in N-Spect whether compliance inspections
include a full examination of storage facilities.

     OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide documentation by July 8, 2013, of the
changes ATF has made to N-Spect and how the tracking information will
ensure that inspections fulfilled the SEA mandate.

Recommendation 2: Ensure that Investigators document the end date
of the on-site portion of each inspection in N-Spect, ATF’s inspection
tracking system.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation and
noted that its policies already require Investigators to document this
information. ATF also plans to examine the feasibility and cost of
upgrading N-Spect to prompt system users when this information is not
recorded.

     OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide an update by July 8, 2013, on ATF’s
planned upgrade to N-Spect, and documentation showing how ATF will
ensure that its policy is fully followed in the interim.

Recommendation 3: Identify inspection data that would be useful for
analysis of its explosives licensee inspection program, and of trends in
the explosives industry, and develop methods for regularly collecting and
analyzing this information.

U.S. Department of Justice                                               44
Office of the Inspector General
Evaluation and Inspections Division
       Status: Unresolved.

       ATF Response: ATF did not concur with this recommendation.
ATF stated that it does not believe analysis of its inspection data would
be useful because the data it collects reflects only single points in time,
and thus the aggregated inspection data are stale and have low
information value. ATF also stated that the cost of improving its existing
data system or acquiring a new one would be high. Finally, ATF stated
that its current practice of identifying and responding to trends in the
explosives industry through communication, collaboration, and outreach
with the industry was the most efficient method of obtaining trend
information.

       OIG Analysis: ATF’s response disagrees that further analysis of its
inspection data would be useful to its explosives licensee inspection
program. While we acknowledge that ATF’s current methods of outreach
and collaboration represent one way of identifying trends in the
explosives industry, we remain concerned that relying on that method
exclusively causes ATF to focus primarily on trends affecting explosives
licensees that have both the resources and inclination to engage with
ATF. Our report identifies numerous ways in which analysis of
inspection results can enhance ATF’s ongoing work as the industry’s
regulator, such as by ensuring that ATF can identify trends affecting the
entire industry or relevant subsets of the industry, and by providing it
with such basic industry information as the exact number of commercial
explosives magazines in the United States or in a region. Further, the
data from individual inspections can provide a useful aggregate summary
of the issues and challenges Inspectors identify over time and enable ATF
to work on these matters.

       We agree that the cost of acquiring a new data management
system would be high. However, during our review, ATF stated in writing
that it was already studying its future data needs to implement “a wholly
new system” for capturing and maintaining inspection and criminal
investigation data.

       We therefore believe ATF should incorporate a greater ability to
conduct analysis of its inspection results into these ongoing plans for its
next data management system. In the meantime, we believe that ATF
should use other methods of examining inspection data, as practicable,
to help determine what types of analytical capabilities would be useful in
its future system.



U.S. Department of Justice                                               45
Office of the Inspector General
Evaluation and Inspections Division
       To close this recommendation as resolved, by July 8, 2013, please
provide documentation on ATF’s efforts to identify its future data needs
with regards to inspections, as well as identify data already in N-Spect
that would help illuminate the aggregate issues ATF needs to address
with its explosives licensees.

Recommendation 4: Develop a method for tracking entities regardless
of changing license numbers, such as assigning an identifying number to
each licensee that remains consistent for the duration of the licensee’s
explosives operations.

       Status: Resolved.

        ATF Response: ATF partially concurred with this
recommendation and agreed that tracking entities regardless of changes
to their license numbers was a desirable goal. ATF proposed examining
whether it could use employer identification numbers, Social Security
numbers, or other information already collected in its Federal Licensing
System for this purpose. ATF also proposed examining the feasibility
and cost of assigning a unique identifier to each legal entity that applies
for a license or permit.

       OIG Analysis: ATF’s planned actions are responsive to our
recommendation. We agree that it is reasonable for ATF to first consider
whether information it already collects in its Federal Licensing System
would be useful in tracking legal entities regardless of their license
numbers. Please provide documentation on the status of ATF’s efforts to
either repurpose or expand the tracking information in the Federal
Licensing System by July 8, 2013.

Recommendation 5: Create a reliable, consistent, and efficient
mechanism for explosives sellers to verify a buyer’s authorization to
purchase explosives, such as by providing a Letter of Authorization to
every buyer with an expired license that files a timely renewal
application.

       Status: Resolved.

       ATF Response: ATF partially concurred with this
recommendation. ATF agreed that it is desirable to provide explosives
sellers with a reliable, consistent, and efficient mechanism to verify a
buyer’s authorization to purchase explosives, but disagreed that
automatically issuing Letters of Authorization is the most effective
manner of doing so. ATF stated that it believes licensees are in the best


U.S. Department of Justice                                               46
Office of the Inspector General
Evaluation and Inspections Division
position to determine whether they need a letter. ATF currently
estimates that only 10 to 15 percent of renewal applicants request one.

       ATF proposed developing and deploying an online verification
system for explosives licenses similar to its FFL eZ Check website for
federal firearms licensees (FFL). The eZ Check website allows one FFL to
verify or authenticate another federal firearms license prior to shipping
or disposing of a firearm to that potential buyer.

       OIG Analysis: ATF’s planned action is partially responsive to our
recommendation. We agree that developing an explosives version of
ATF’s eZ Check website would be beneficial. However, FFL eZ Check
shows only letters that ATF has issued. If an explosives licensee
qualified for a letter, but did not request one, ATF’s proposed explosives
eZ Check website, if similar to the FFL eZ Check website, would still not
indicate whether a buyer with an expired license is authorized to
purchase explosives. We continue to believe that allowing any buyer to
purchase explosives with an expired license without simultaneously
providing explosives sellers with a reliable, consistent, and efficient
mechanism to verify the buyer’s authorization to make the purchase is
unwise. If ATF does not wish to provide this safeguard, whether by
providing the relevant information through an eZ Check website, issuing
letters to all qualified licensees, or in another way, then we believe it
should seek to eliminate the 45-day post-expiration date grace period in
its regulations.

      To close this recommendation as resolved, by July 8, 2013, please
provide a schedule of ATF’s plan to implement an explosives eZ Check
website or other system to provide explosives sellers with a reliable,
consistent, and efficient mechanism to verify a buyer’s authorization to
purchase explosives, including when relevant information confirming
whether the buyer is authorized to purchase explosives after the
expiration date of the buyer’s license.

Recommendation 6: Conduct in-person inspections of all EPCD users
or obtain the authority to issue licenses and permits valid only for
EPCDs.

       Status: Unresolved.

      ATF Response: ATF did not concur with this recommendation.
ATF stated that its current approach of inspecting EPCD end-users by
telephone is the most cost-effective approach to ensuring public safety.
ATF further stated that its Investigators are able to fully verify end-users’
compliance over the telephone, and that they can conduct an in-person

U.S. Department of Justice                                                47
Office of the Inspector General
Evaluation and Inspections Division
inspection if information from a call leads them to conclude that the end-
user is also acquiring other types of explosives.

       OIG Analysis: ATF’s response disagrees with our recommendation
to develop an alternative to the current telephone inspections of EPCD
users. However, we continue to believe ATF needs to independently
verify end-users’ statements that they use only EPCDs since the permits
they hold allow them to buy any type of explosive. Additionally, several
ATF employees told us that they were concerned that end-users could
state that their magazines were in compliance, but that an Investigator
examining the magazines in person might disagree.

       We recognize that ATF strives to use its limited resources in the
most efficient manner possible. However, we note that ATF also told us
that telephone inspections accounted for approximately 2 percent of the
total number of explosives qualification and compliance inspections
conducted in FY 2011 (85 of 4,504). We also continue to believe that,
despite this relatively small percentage of users who are subject only to
telephone inspections, the potential for these EPCD users to purchase
and use other types of explosives and yet avoid in-person inspections
represents a significant gap in ATF’s explosives licensee inspection
program.

      To close this recommendation as resolved, please provide
documentation that ATF has changed its policy regarding telephone
inspections by July 8, 2013.

Recommendation 7: Explore ways to obtain more out-of-business
records within ATF’s current legal authority.

       Status: Resolved.

     ATF Response: ATF stated that it would explore ways to obtain
more out-of-business records within its current legal authority.

      OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide an update by July 8, 2013, describing
the options ATF considered to collect more out-of-business records, and
the option ATF chose.




U.S. Department of Justice                                              48
Office of the Inspector General
Evaluation and Inspections Division
